                 Millennium Challenge Corporation
                 Reducing Poverty Through Growth




September 30, 2004

MEMORANDUM
FOR:           Chief Executive Officer, Millennium Challenge
               Corporation, Paul V. Applegarth

FROM:          USAID Office of Inspector General, Assistant
               Inspector General for the Millennium Challenge
               Corporation, Henry L. Barrett /s/

SUBJECT:       Review of the Millennium Challenge Corporation’s
               Progress in Achieving Its Planned Organizational
               Structure and Beginning Its Assistance Programs
               As of August 31, 2004
               (Report No. M-000-04-001-S)

This is our final report on the subject review. In finalizing the
report, we considered your comments on our draft report and
included those comments, in their entirety, in Appendix II of this
report.

There are no recommendations in this report.

I appreciate the cooperation and courtesy extended to my staff during
the review.
    [This page intentionally left blank.]




2
Table of   Background                                               5
Contents
           Review Objectives                                        6

           Review Findings                                          6

                  What progress has the Millennium Challenge
                  Corporation made in achieving its planned
                  organizational structure?                         6

                  What is the status of the Millennium Challenge
                  Corporation’s compact development process?        8

                  What progress has the Millennium Challenge
                  Corporation made in complying with the
                  Millennium Challenge Act of 2003 and other
                  applicable Federal laws and regulations?         10

           Management Comments and Our Evaluation                  13

           Appendix I - Scope and Methodology                      15

           Appendix II - Management Comments                       17

           Appendix III – Description of the Millennium
           Challenge Corporation’s Offices                         23

           Appendix IV – MCC Proposal Assessment and
           Compact Development Outline                             25




                                                                    3
    [This page intentionally left blank.]




4
Background   In March 2002, President Bush called for a new compact for global
             development, defined by new accountability for both rich and poor
             nations alike. Greater contributions from developed nations must
             be linked to greater responsibility from developing nations. The
             President pledged that the United States would lead by example
             and increase its core development assistance by 50 percent over the
             next three years, resulting in a $5 billion increase by fiscal year
             2006. These funds would go into a new Millennium Challenge
             Account (MCA). Because sound policies are an essential
             condition of development, the President announced that the MCA
             will be devoted to projects in nations that govern justly, invest in
             their people and encourage economic freedom.

             On January 23, 2004, the Millennium Challenge Corporation
             (MCC) was established by the Millennium Challenge Act of 2003
             (Act)1 to administer the Millennium Challenge Account. The
             MCC is a new government corporation designed to support
             innovative strategies and to ensure accountability for measurable
             results. MCC is designed to make maximum use of flexible
             authorities to optimize efficiency in contracting, program
             implementation, and personnel. It is supervised by a Board of
             Directors composed of the Secretaries of State and Treasury, the
             U.S. Trade Representative, the Administrator of the U.S. Agency
             for International Development, the Chief Executive Officer of the
             Corporation and four public members appointed by the President
             with the advice and consent of the Senate. The Secretary of State
             is the Chairman of the Board.

             The Act envisions selecting countries eligible to receive assistance
             within a group of candidate countries. Candidate countries for
             fiscal years 2004 and 2005 are lower income countries—based on
             World Bank per capita income guidelines ($1415 in fiscal year
             2004)—which are not otherwise prohibited from receiving
             assistance under U.S. law. For fiscal year 2006, the group of
             candidate countries is expanded to include lower middle income
             countries, although no more than 25 percent of the funding
             available may be given to such countries. Eligible countries are
             selected by the MCC’s Board of Directors based on the candidate
             countries’ relative rankings against each other and against
             objective indicators of the countries’ past and current policy

             1
              The Millennium Challenge Act of 2003 is Part D, Title VI of Public Law 108-
             199—The Consolidated Appropriations Act of 2004.


                                                                                       5
              performance in the areas of ruling justly, encouraging economic
              freedom, and investing in people.

              For its initial year of operations, MCC received an appropriation of
              $994 million. For fiscal year 2005, it has requested $2.5 billion.

              At its first meeting on February 2, 2004, the MCC Board approved
              a list of 63 candidate countries for fiscal year 2004 and on May 6 it
              selected 16 of those countries as eligible to submit proposals for
              assistance under fiscal year 2004 funding. On July 20, 2004, the
              MCC Board named 70 countries as candidates to compete for
              fiscal year 2005 MCA assistance.2


 Review       Recognizing that the Millennium Challenge Corporation (MCC) is
 Objectives   still in the development stage of its operations, the purpose of our
              review was to assess and report on the current status of the MCC
              from its beginning in terms of achieving its planned organizational
              structure, developing its compact development process, and
              complying with the Millennium Challenge Act of 2003 and other
              applicable laws and regulations.

              Appendix I contains a discussion on the review’s scope and
              methodology.



Review        What progress has the Millennium Challenge Corporation
Findings      made in achieving its planned organizational structure?

              The MCC has made significant progress in achieving its planned
              organizational structure. In the short period of time since its
              inception, MCC has filled key positions, staffed a skilled workforce
              to begin its operations and established the offices that it believes will
              be needed to administer assistance. Additionally, MCC has
              developed a draft staffing plan that details the number of staff
              anticipated in each office up to December 2005, the point at which it
              presently expects to be fully staffed.




              2
                MCC’s website (www.mca.gov) identifies the candidate countries for fiscal
              years 2004 and 2005 as well as the eligible countries for fiscal year 2004. The
              16 countries eligible for fiscal year 2004 are: Armenia, Benin, Bolivia, Cape
              Verde, Georgia, Ghana, Honduras, Lesotho, Madagascar, Mali, Mongolia,
              Mozambique, Nicaragua, Senegal, Sri Lanka and Vanuatu.


 6
MCC has established an organizational structure consisting of the
Chief Executive Officer and eight Vice Presidencies: (1) General
Counsel, (2) Administration and Finance, (3) Country Relations,
(4) Markets and Sector Assessments, (5) Domestic Relations, (6)
Monitoring and Evaluation, (7) Development Policy and (8)
International Relations. (See Appendix III for a description of
each office.)

As shown in the table below, as of August 31, 2004, MCC had 57
employees on board (47 U.S. direct hires, 8 contractors and 2
detailees). By December 2005, MCC planned to reach its full
staffing level of 222 U.S. positions.

                            Table 1:
          MCC’s Current and Projected Number of
           Staff Positions through December 2005

                                                            Full
                                           Current        Staffing
 Office                                    Staffing       Dec. 05
 Chief Executive Officer                            5            11
 General Counsel                                    6            11
 Administration and Finance                        14            23
 Country Relations                                 15            95
 Markets and Sector Assessments                     6            38
 Domestic Relations                                 5            13
 Monitoring and Evaluation                          3            16
 Development Policy                                 2              7
 International Relations                            1              8

 Totals                                            57           222


MCC provided details showing the breakdown of the 222 positions
as 212 U.S. direct hires, 8 contractors, and 2 detailees. MCC
explained that the target of 222 is based on the perceived staffing
needs of each of its offices, assuming MCC will be working in 30
countries by fiscal year 2006. MCC further explained that 20 of the
U.S. direct hire positions will be located overseas to provide an on-
the-ground presence to oversee the activities in the 30 countries. It
further stated that it envisions hiring an unspecified number of
Foreign Service National (FSN) personal service contractors to assist
the U.S. employee staff overseas. The FSN staff are to be in addition
to the 222 U.S. positions mentioned above.



                                                                   7
    According to MCC, it has agreements in principle with the Office of
    Management and Budget (OMB) and Congress to limit its U.S.
    direct hire staffing to 200. When questioned how the above-
    mentioned 212 U.S. direct hire positions reconciles with its
    agreements with OMB and the Hill to limit its U.S. direct hire
    staffing to 200, MCC officials stated they had a commitment to
    “manage down” to 200. On the other hand, MCC officials noted that
    the 200 U.S. direct hire figure is just their best guess of what will be
    needed given what they know to date. They stated that a year from
    now MCC will have a better idea on the number of staff it really
    needs.

    MCC recognizes that even with 222 plus positions it will be thinly
    staffed to oversee an assistance program that is expected to reach $5
    billion a year (less the amount used for operations). We note that $5
    billion a year for 30 countries averages out to approximately $167
    million per country per year—a very significant amount of money
    which we believe will require close oversight. MCC is aware of the
    challenge it faces in ensuring adequate oversight of its assistance
    programs and intends to contract for whatever support its core staff
    needs to maintain a proper level of oversight.

    What is the status of the Millennium Challenge Corporation’s
    compact development process?

    Prior to the MCC Board’s selection of 16 eligible countries for
    MCA assistance in fiscal year 2004, MCC posted guidance on its
    website to assist the countries in developing country proposals. In
    subsequent initial trips to the countries in May and June, MCC
    invited each country to submit a proposal, discussed the guidelines
    for compact proposal preparation, and explained MCC’s focus in
    evaluating initial proposals. Since the initial trips, MCC generally
    has stayed abreast of the countries’ proposal development efforts
    through various communication channels, including follow-up
    trips to a number of the countries.

    MCC records indicated that by the end of August 2004 it had
    received initial MCC program proposals from three countries and
    had received “concept papers” from six additional countries.3 The
    same records indicated that MCC expected to receive proposals or
    concept papers from an additional four countries during September

    3
      MCC encourages countries to informally submit concept papers, outlines or
    other documentation for guidance and feedback from MCC prior to submitting
    an initial proposal for MCC assistance. The quality and substance of these
    concept papers has varied widely. MCC considered these submissions as initial
    steps in what likely will be an iterative process.


8
and through the beginning of October. The remaining three
countries were listed as “TBD” (To Be Determined).4

For the two most developed proposals, MCC has sent technical
teams on follow-up visits to perform initial assessments before
making a decision on beginning a formal due diligence process.5
MCC was also developing an internal procedures document
outlining the steps it might take and documents it might prepare
during the major stages of MCC compact development: proposal
development, initial due diligence, compact negotiation, and
compact implementation. While the draft document had not been
approved as of August 31, 2004, we are including a chart
illustrating MCC’s preliminary thinking. (See Appendix IV.)

One of the issues that MCC is well aware of and will need to deal
with going forward is its funds allocation process. MCC’s fiscal
year 2004 appropriation is about $1 billion and early indications
are that program proposals will come in for much more than that
amount. For instance, MCC records indicated that 5 of the
prospective 16 submissions received thus far included dollar
estimates that already amount to about $1.6 billion. While MCC
has made clear to the countries that being an eligible country is no
guarantee of receiving assistance, it would seem a challenge to
devise an approach to allocating the funds.

MCC representatives told us that they expected most of the same
countries to be eligible to receive assistance under both fiscal year
2004 and 2005 funding. Given the anticipated availability of fiscal
year 2005 funding and the time it will take to develop and
negotiate the assistance programs currently being developed by the
eligible countries, MCC was hopeful that the funds allocation issue
would be a manageable one.




4
  MCC considered the details on the stage of development of the countries’
proposals and the proposals’ preliminary content and dollar estimates to be
business confidential information. At MCC’s request, we have excluded such
information from our report.
5
  Due diligence refers to the appraisal process MCC plans to follow to support
the development of a country’s proposal and ultimately ensure that compacts
supported are a sound investment of U.S. taxpayer funds.


                                                                            9
     What progress has the Millennium Challenge Corporation
     made in complying with the Millennium Challenge Act of 2003
     and other applicable Federal laws and regulations?

     The Millennium Challenge Corporation (MCC) is making progress
     towards complying with the Millennium Challenge Act of 2003
     (Act). At the time of our review, MCC staff were still in the
     process of assessing the applicability of other laws to its operations
     and determining and developing regulations it plans to follow for
     its administrative and operational functions.

     Below is a discussion of our review observations regarding the
     MCC’s compliance with the Act as well as with other laws and
     regulations.

     Act Authorities and Requirements

     The Act has a number of authorities and requirements which
     instruct the MCC on how to organize itself, identify countries that
     are candidates for assistance, select countries eligible to submit
     assistance proposals, administer assistance to the countries, enter
     into agreements with the countries, as well as other provisions and
     requirements on reporting and coordination with government
     entities.

     In accordance with the Act, the MCC has made progress in
     complying with the Act by taking the following actions, among
     others:

     •   The MCC has been established and its Board of Directors is in
         operation with the designated Government officers in place as
         well as the Chief Executive Officer and two public members.
         Two further public members remain to be selected to bring the
         Board to full strength.

     •   MCC identified candidate countries for fiscal years 2004 and
         2005.

     •   The Board selected eligible countries for fiscal year 2004.

     •   MCC made proper notifications to Congress on its selections of
         candidate and eligible countries.




10
•   The Acting CEO of the MCC met and consulted with
    appropriate congressional committees on the extent to which
    candidate countries met the eligibility criteria.

•   MCC held public meetings on the selection criteria and
    methodology used for determining the eligibility of candidate
    countries.

•   The MCC has a legal opinion from its Office of the General
    Counsel concerning the manner in which its obligations shall
    be incurred and its expenses allowed and paid.

•   The Board of Directors authorized MCC to enter into an
    interagency agreement with USAID for up to $40 million to
    assist certain candidate countries, referred to as threshold
    countries,6 to improve their performance against the selection
    criteria.

All of the above actions were in accordance with the authorities
and requirements of the Act. The only matter we considered to be
a possible exception was that the pay rate for the services of the
Board’s public members did not include Washington D.C.-based
locality pay. The Act indicates that public members should receive
the highest rate payable to government general schedule
employees,7 which the MCC correctly determined to be “GS-15,
step 10.” However, we noted that the public members were not
being paid at a scale which included the Washington D.C.-based
locality pay. Since the Board is headquartered in Washington,
D.C., MCC should determine if the public members are entitled to
the Washington, D.C. rate.

Other Federal Laws and Regulations

The Millennium Challenge Corporation is subject to the
Government Corporation Control Act. That Act requires the head
of the Corporation to submit an annual management report to
Congress which includes audited financial statements and a
statement on internal accounting and administrative control
systems consistent with the Federal Managers’ Financial Integrity
Act of 1982.

6
  Threshold countries are ones that just missed being determined eligible to
receive MCA assistance but demonstrate a commitment to improving policy
reform.
7
  The Act states that the public members shall be paid at the daily equivalent of
the highest rate payable under section 5332 of Title 5 USC which specifies the
General Schedule pay requirements.


                                                                             11
     According to MCC officials, the MCC is partially or wholly
     exempt from some other laws to which most government agencies
     are subject. Specifically, information provided by MCC officials
     indicates that the Corporation does not have to comply with the
     Prompt Payment Act. MCC officials also stated that the
     Corporation is partially exempt from the following laws:

     •    The Chief Financial Officers Act of 1990, except for the
          chapter that deals with the budget process;

     •    The Government Management Reform Act of 1994, except
          for the direct deposit requirement and the requirements which
          deal with the financial reporting and accounting system as
          implemented by the U.S. Treasury, and

     •    The Federal Financial Management Improvement Act of
          1986, with the exception of the requirements which deal with
          financial reporting and accounting systems as implemented
          by the U.S. Treasury.

     According to MCC officials, if a law does not specifically state
     that it applies to a government corporation, the MCC is not
     required to comply. We will continue to review the laws
     mentioned above to confirm that MCC is not subject to them and
     to determine what is required to comply with the sections which
     are applicable to the MCC. Also, the MCC is continuing to review
     the laws mentioned above to determine applicability.

     Federal Regulations - Along with laws, we inquired about
     government regulations MCC plans to follow.                Most U.S.
     government agencies are required to follow Federal regulations
     concerning personnel practices, procurement of goods and services,
     and travel related matters. Currently, the MCC is following several
     Federal regulations such as Federal Acquisition Regulations for
     procurement, Federal Travel Regulations for travel, and Office of
     Personnel Management regulations for personnel related matters.
     However, the MCC plans to write its own policies and procedures for
     the above regulations to reflect the flexibility that it has under the
     Act. The MCC also plans to write its own security program and
     employee bonus policies. Further, the MCC has already written and
     implemented two policies that cover Government Leased Vehicles
     and Entertainment and Representation Funds.




12
                 During our review of personnel regulations being followed by
                 MCC, we noted two instances of special benefits, “Recruitment,
                 Retention, Relocation Benefits,” (amounting to $37,500) being
                 paid to two MCC employees. While MCC believed that payment
                 of these benefits fell within the authority of the Act, it did not
                 maintain documentation to support the rationale for the payments
                 and the amounts. MCC acknowledged that it should have
                 maintained documentation to support the payments.




Management       MCC provided written comments to our draft report that are
Comments and     included in their entirety in Appendix II. In its response, MCC
Our Evaluation   presented updated information on its planned U.S. positions when
                 it reaches its full staffing level in December 2005. It also provided
                 expanded/revised descriptions of the responsibilities of certain of
                 its offices. MCC further commented that in the area of laws and
                 regulations our draft report should have focused on laws that apply
                 to MCC—not laws that do not apply—but stated that it has chosen
                 to adopt certain laws and OMB policy because the laws and
                 regulations make good business sense. MCC also suggested
                 various edits to the draft report.

                 Regarding MCC’s planned U.S. positions at full staffing,
                 subsequent to our report cut off date of August 31, 2004, MCC
                 revised the number of planned positions from 222 to 200. Since
                 our report reflects MCC’s status as of August 31, 2004, we have
                 not changed our report. However we do note that MCC’s revised
                 planned full staffing of 200 U.S. positions is consistent with the
                 agreement in principle that the MCC has with OMB and Congress.

                 Regarding laws and regulations, we revised the portion of our
                 report dealing with other Federal Laws and Regulations. We note
                 that MCC’s written comments state that it will adopt the Prompt
                 Payment Act because it makes good business sense. Also, for the
                 same reason, it has stated that it will adopt selected aspects of the
                 Sarbanes-Oxley Act and comply with OMB’s “Form and Content
                 for Financial Statements” requirements on an accelerated basis.
                 While it is not clear on the basis of MCC’s written comments to
                 what extent it plans to adopt the requirements of these last two
                 mentioned laws and regulations, we will continue to work with the
                 MCC towards implementing those parts it plans to follow.

                 Lastly, as regards MCC’s suggested edits, we have included those
                 edits which provide new or revised descriptions of the



                                                                                   13
     responsibilities of certain of its offices and those we believe add to
     the report’s clarity.




14
                                                                   Appendix I


Scope and     Scope
Methodology
              The Millennium Challenge Corporation’s Office of Inspector
              General conducted this review to gain an understanding of the
              progress that MCC has made in establishing its organizational
              structure and beginning its assistance program. Our review was not
              an audit and therefore was not designed to fully comply with
              generally accepted government auditing standards. The review was
              conducted at the MCC office located in Arlington, Virginia from
              August 2 through August 31, 2004.

              Methodology

              In planning and performing this review, we interviewed MCC
              management officials and examined documentation relating to
              MCC’s organization, staffing, budget, relevant laws and regulations
              and its progress in developing country compacts.

              To determine the progress MCC has made in achieving its planned
              organizational structure, we interviewed MCC officials to
              determine the current status of its organizational structure in terms
              of where they are now versus where they expect to be when fully
              staffed and operational. We discussed with each vice president or
              office representative the anticipated staffing needs of each office,
              hiring plans, office responsibilities and interdependences with
              other MCC offices. We also reviewed documentation such as
              organizational charts, staffing plans and position descriptions.

              To determine the status of MCC’s compact development process,
              we reviewed MCC guidance to countries for developing proposals
              for MCA assistance, MCA criteria and methodology for
              determining candidate and eligible countries, briefing materials
              from MCC’s initial trips to the 16 countries selected as eligible to
              submit assistance proposals for fiscal year 2004, proposals and
              concept papers received from these countries as of August 31,
              2004, file documentation for selected eligible countries, weekly
              summary reports of the status of proposal development for the 16
              countries, and a preliminary draft procedure outlining MCC’s
              internal proposal assessment and compact development process.
              We also interviewed key personnel involved in MCC’s oversight
              of the compact development process.



                                                                                15
     To determine whether the MCC complied with the Millennium
     Challenge Act of 2003 (Act) and other applicable Federal laws and
     regulations, we met with and obtained documentation from MCC
     staff and staff at the MCC’s service provider. We discussed with
     the MCC staff their interpretation of parts of the Act and whether
     or not the MCC complied with its terms. In reviewing compliance
     issues, we attempted to determine the minimum level of action
     necessary to meet the requirements of selective Act and other
     Federal laws and regulations’ requirements but did not attempt to
     fully evaluate the thoroughness, effectiveness or impact of the
     actions MCC has taken.




16
                                                     Appendix II


Management
Comments

               Millennium Challenge Corporation
               Reducing Poverty Through Growth


                  September 28, 2004
                  MEMORANDUM

    TO:           USAID Office of Inspector General for the
                  Millennium Challenge Corporation, Henry L. Barrett

    FROM:         Vice-President for Finance and Administration,
                  Millennium Challenge Corporation, Gary A. Keel /s/

    SUBJECT:      Response to Draft Report on the “Review of the
                  Millennium Challenge Corporation’s Progress in
                  Achieving Its Planned Organizational Structure and
                  Beginning Its Assistance Programs As of August 31,
                  2004.”

                  We have reviewed the draft report titled “Review
                  of the Millennium Challenge Corporation’s Progress
                  in Achieving Its Planned Organizational Structure
                  and Beginning Its Assistance Programs As of August
                  31, 2004,” and provide the following comments.

                  We would like to make the following comments with
                  regard to the Review Findings addressing the MCC’s
                  progress in achieving its planned organizational
                  structure and its compliance with Millennium
                  Challenge Act of 2003 and other Federal laws and
                  regulations.




                                                                   17
     Organizational Structure:

     We modified our staffing plan during the past
     month as shown in Table 1, and accordingly, we now
     meet the overall staffing levels agreed to with
     OMB.

                       Table 1:
        MCC’s Current and Projected Number of Staff
            Positions Through December 31, 2005


                                                    Full
                                         Current Staffing
        Office                           Staffing Dec. 05
        Chief Executive Officer                 5       10
        General Counsel                         6       10
        Administration and Finance             14       17
        Country Relations                      15       83
        Markets       and       Sector
        Assessments                            6         38
        Domestic Relations                     5         12
        Monitoring and Evaluations             3         16
        Development Policy                     2          7
        International Relations                1          7

        Totals                                57       200
     Other Federal Laws and Regulations:

     Given the nature of the objective, we believe the
     focus of this report should be MCC’s compliance
     with the laws that apply to MCC and not laws that
     are inapplicable to MCC. MCC’s goal is to be an
     efficient and effective steward of taxpayer
     resources: to ensure transparency and
     accountability. Accordingly, MCC’s strategy is
     (i) to meet all applicable laws and regulations;
     and, (ii) to develop policies and procedures that
     draw on the best management practices from both
     public and private sector organizations.




18
Congress chose to constitute the MCC as a
government corporation. As such, we are subject
to the Government Corporation Control Act as well
as many other laws that apply generally to Federal
agencies. Within days of its creation, MCC
developed a comprehensive compendium of the laws
and sections of laws that apply to MCC,8 in order
to guide its policies and ensure it complied with
all legal requirements. We have given priority to
meeting these requirements, and in addition we
have chosen to adopt the following because they
make good business sense:

•    The Prompt Payments Act;
•    Selected aspects of the Sarbanes-Oxley Act;
     and,
•    Comply with OMB’s Form and Content Statements
     requirement on an accelerated basis.

As stated above, the report does not adequately
present MCC’s goals or its accomplishments in
enhancing accountability and transparency.
Other Comments:

Page 11, Para 2: MCC will review the requirements
of the Act with respect to the daily rate of
compensation to be paid to public members of the
board of directors, to determine if a higher rate
should be paid than what MCC paid previously, as
suggested by the OIG.

Page 13, Para 1: Request that the language be
changed to read as follows: “ ….we noted two
instances of recruitment bonuses (amounting to
$37,500) being paid to two MCC career-status
employees in connection with their recruitment by
MCC from outside the Federal government. While
MCC concluded that payment of these benefits fell
within the authority of the Act and generally
applicable regulations administered by OPM, it




8
    A copy was provided to the auditors.


                                                     19
     did not maintain full documentation to support the
     rationale for the payments and the amounts.”

     Page 5, Para 3, line 11 – Should read: “against
     objective non-USG indicators.”

     Page 7, Para 2, Line 4 – should read: “level with
     222 U.S. positions.”

     Page 8, Para 3, Line 7 – Should read: “Since the
     initial trips, MCC has stayed abreast…”

     Page 11, Para 1, Line 12 – Please include a
     footnote that states: “The Washington, D.C rate
     would increase the amount payable to a public
     member by approximately $ 13.00 per day.”

     Page 11, Footnote 6 – To be consistent with the
     Act – “ A threshold country is a candidate
     country that demonstrates significant commitment
     to meet the eligibility criteria but fails to
     meet the requirements (including by reason of the
     absence or unreliability of data).”

     Appendix III:

     General Counsel: Should read: “General Counsel
     is responsible for the provision of legal
     services in support of MCC’s program and
     administrative operations. This office advises
     on legislation, international agreements and
     other legal matters. It also serves as the
     secretariat for the Board of Directors.”

     Domestic Relations: Should read: “Domestic
     Relations is responsible for MCC’s Congressional
     relations and public affairs.”

     Monitoring and Evaluation: Should read: “The
     Monitoring and Evaluation (M&E) department is
     responsible for overseeing the assessment of
     economic logic and growth impact of country
     proposals, the establishment of monitoring and
     evaluation plans, and the collection and analysis
     of performance measurement data. M&E keeps
     abreast of and publishes research on economic
     development, with a focus on MCC experience. M&E




20
is responsible for assessing statistical capacity
in eligible countries and reinforcing efforts to
improve local capacity. M&E contributes to
developing and implementing performance reporting
for the entire MCA portfolio. M&E will also
manage the process of arranging for appropriate,
independent, ex-post evaluations.”

Market and Sector Assessments: Should read:
“Markets and Sector Assistance is responsible for
providing technical expertise on specific
development function areas when evaluating
country proposals [to ensure that the projects
that the countries are proposing are feasible and
doable]. This office is also responsible for
reviewing the financial and procurement systems
in each country, as well as reviewing
environmental compliance.”




                                                21
     [This page intentionally left blank.]




22
                                                                              Appendix III


            Description of the Millennium Challenge Corporation’s Offices

The Office of Chief Executive Officer is responsible for managing MCC’s operations in a
manner that not only reflects the policies of the Board of Directors, but that also achieves the
MCC’s objectives in accordance with applicable laws and regulations and Congressional
directives.

General Counsel is responsible for the provision of legal services in support of MCC’s
program and administrative operations. This office advises on legislation, international
agreements and other legal matters. It also serves as the secretariat for the Board of
Directors.

Administration and Finance is responsible for all matters pertaining to the Corporation’s
financial, administrative, information technology, procurement, and human resource
management operations, policies and procedures.

Country Relations is the primary office in charge of managing the compact development
process. This office is responsible for all communication with eligible countries leading up
to the country’s submission of a proposal. It provides advice to the countries about their
proposals, plays a coordination role after the proposals are submitted and will be responsible
for coordinating the negotiation of compacts with the individual countries.

Markets and Sector Assessments is responsible for providing technical expertise on
specific development function areas when evaluating country proposals [to ensure that the
projects that the countries are proposing are feasible and doable]. This office is also
responsible for reviewing the financial and procurement systems in each country, as well as
reviewing environmental compliance.

Domestic Relations is responsible for MCC’s Congressional relations and public affairs.

Monitoring and Evaluation is responsible for overseeing the assessment of economic
logic and growth impact of country proposals, the establishment of monitoring and
evaluation plans, and the collection and analysis of performance measurement data.
Monitoring and Evaluation keeps abreast of and publishes research on economic
development, with a focus on MCC experience. Monitoring and Evaluation is
responsible for assessing statistical capacity in eligible countries and reinforcing efforts
to improve local capacity. Monitoring and Evaluation contributes to developing and
implementing performance reporting for the entire MCA portfolio. Monitoring and
Evaluation will also manage the process of arranging for appropriate, independent, ex-
post evaluations.

Development Policy is responsible for defining MCC’s policies and procedures. This


                                                                                             23
office is also responsible for gathering data on the countries, reporting to Congress and
developing briefing materials.

International Relations is responsible for developing and maintaining mutually-beneficial
relationships with international organizations.




24
                                                                                                                                                                Appendix IV

                                            MCC Proposal Assessment and Compact Development Outline
                                                         (MCC Draft – August 20, 2004)

                                                                                         Congressional                                           Notification        Notification
                                                                                         Consultation                                              before           after Compact
                                                                                                                                                  obligation            signing

                                                                                              ↓                                                      ↓                       ↓
                            ♦                      ♣                                       ♣♠     (15 days)                    ♣                 ♣♥ (15 days)    (10 days)



  Proposal Development
       by Country
                                                                                                               Completion of
                                 OPPORTUNITY                                                                   Due Diligence
   Informal dialogue                MEMO                       Initial Due Diligence
   between MCC and                                                 Country Visits
        Country
                                 DUE DILIGENCE              Internal MCC Due Diligence                        TERM SHEET
       Country Visits (if            PLAN                             Reports
         Necessary)                                                                                           INVESTMENT                                        IMPLEMENTION OF
                                                          Bi-weekly Investment Committee                         MEMO                                             AGREEMENTS
                                                                Reviews/Meetings
                                                                                                                                   Compact                      Ongoing Due Diligence
                                                            CONSULTATION MEMO                                                      Negotiation
                                                                                                                                                                    Disbursement
                                                                                                                                   COMPACT                      Ongoing Monitoring &
                                                                                                                                   w/ ANNEXES                        Evaluation



             Proposal Development                            Initial Due Diligence                                Compact Negotiation                           Implementation




Key:      ♦     Transaction Team decision
          ♣      Investment Committee decision
          ♠      CEO confers with Board
          ♥      MCC Board decision

           Formal documents are shown in all bold caps.
                                                                                                                                                                                   25
